     ADVISORY REPORT

    COSTS CLAIMED BY THE
       STATE OF HAWAII,
   DEPARTMENT OF LAND AND
     NATURAL RESOURCES,
  UNDER FEDERAL AID GRANTS
    FROM THE U.S. FISH AND
    WILDLIFE SERVICE FROM
     JULY 1, 1998 THROUGH
         JUNE 30, 2000




NOVEMBER 2002   Report No. 2003-E-0003
                                                                           X-GR-FWS-0005-2003

                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240



                                                                               November 12, 2002

                               ADVISORY REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Advisory Report on Costs Claimed by the State of Hawaii Department of Land and
           Natural Resources Under Federal Aid Grants from the U.S. Fish and Wildlife Service
           from July 1, 1998 through June 30, 2000 (No. 2003-E-0003)

                                    INTRODUCTION
      This report presents the results of our performance of procedures to review another audit
agency’s work related to costs claimed by the State of Hawaii Department of Land and Natural
Resources (Department) under Federal Aid grants from the U.S. Fish and Wildlife Service
(FWS) for the period July 1, 1998 through June 30, 2000.

Background and Scope
       The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the Federal
Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts), authorize FWS to
provide Federal assistance grants to the states to enhance their sport fish and wildlife programs.
The Acts provide for FWS to reimburse the states up to 75 percent of all eligible costs incurred
under the grants. Additionally, the Acts specify that state hunting and fishing license revenues
cannot be used for any purpose other than the administration of the state’s fish and game
agencies. In addition, FWS also provides grants to the states under the Clean Vessel Act and the
Endangered Species Act.

        In September 2001, another audit agency prepared a draft audit report on the results of its
review of Federal Aid Program grants awarded by the FWS to the State of Hawaii for fiscal
years 1999 and 2000. The scope of the work to be performed by the audit agency, as stated in its
draft report, was to evaluate (1) the adequacy of the Department’s accounting system and related
internal controls; (2) the accuracy and eligibility of the direct and indirect costs claimed by the



                                                 1
Department under the grant agreements; (3) the adequacy and reliability of the Department’s
hunting and fishing license fees collection and disbursement process; and (4) the adequacy of the
Department’s purchasing system and related internal controls. The audit was also to include an
analysis of other issues considered to be sensitive and/or significant to FWS. The audit work at
the Department covered claims totaling approximately $16 million on FWS grants that were
open during the Department’s fiscal years ended June 30, 1999 and 2000 (see the Appendix).

        From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with FWS. The FWS did not renew or extend its
agreement with the other audit agency. At the time of expiration, final audit reports on several
uncompleted audits had not been issued and the audits were in various stages of the audit and
reporting processes. The audit agency indicated in a September 28, 2001 memorandum that its
supervisor had reviewed a significant portion of the auditors’ working papers, but the remaining
working papers as well as the draft report had not been reviewed to ensure that (1) sufficient,
competent and relevant evidence was obtained, (2) evidential matter contained in the working
papers adequately supported the audit findings in the report, and (3) sound auditing techniques
and judgment were used throughout the audit.

         On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to (1) review the audit work performed by the audit agency including its
working papers, summaries and draft reports for these audits and (2) issue reports on the findings
that were supported by the working papers. Accordingly, our review was limited to performing
the procedures set forth in the Agreement and our conclusions presented in the report are limited
to the findings substantiated by the working papers. We did not perform any additional audit
work of the Department’s records and the limited work performed under these procedures does
not constitute an audit by the OIG in accordance with Generally Accepted Government Auditing
Standards.

                               RESULTS OF REVIEW
       The results of our review of the working papers disclosed the following:

   •   Costs totaling $420,910 were questioned representing costs that were incurred outside of
       grant periods ($296,934), for items purchased but not used ($64,958), claimed twice
       ($35,840), and for in-kind contributions ($23,178) that were incorrectly claimed or
       inadequately supported.

   • Improvements are needed in the Department’s financial management and accounting
       systems pertaining to budget control, time distribution, asset management, and
       subgrantee monitoring.




                                                2
A. Questioned Costs - $420,910

       Questioned costs of $420,910 are discussed below.

        Outside of Period Costs - $296,934. The working papers identified costs of $296,934
that were incurred and claimed outside of the approved grant period. These costs were incurred
by non-profit organizations that were sub-grantees of the Department. OMB Circular A-110,
Uniform Administrative Requirements for Grants and Agreements With Institutions of Higher
Education, Hospitals and Other Non-Profit Organizations, Subpart C, Paragraph 28, states that
“Where a funding period is specified, a recipient may charge to the grant only allowable costs
resulting from obligations incurred during the funding period and any pre-award costs authorized
by the Federal awarding agency.” Each subgrant specified a time period for the completion of
work and there was no evidence that FWS authorized a deviation. Therefore, out-of-period costs
claimed were questioned on the grants follows:

                                                                 Sub-grant
                Grant               Amount                    Contract Number
             F-12-D-24                  $6,825                             40401(a)
             F-14-R-22                  52,994                             24588(b)
             F-14-R-23                 101,310                             24588(b)
             F-14-R-24                  69,243                             24588(b)
             F-17-R-22                  24,042                             38733(c)
             F-17-R-23                  15,000                             42878(a)
             F-17-R-24                  27,520                39082(b) and 42878(a)
               Total                  $296,934

   (a) University of Hawaii
   (b) The Research Corporation of the University of Hawaii (RCUH)
   (c) The Oceanic Institute

          Unused Items - $64,958. The working papers questioned costs of $64,958 claimed
   by the RCUH for components of a computer system that were not assembled or otherwise in
   use under grants F-17-R-23 ($25,854) and F-17-R-24 ($39,104). OMB Circular A-21, Cost
   Principles for Educational Institutions, Part C.3 states that for a cost to be allowable, it must
   be necessary for the operation of the institution or the performance of the sponsored
   agreement. The equipment was purchased in support of grant number F-17-R, segments 23
   and 24, but was in boxes and was not used during the segments for which they were
   purchased. According to a RCUH official, the equipment is for an electronic mailing system
   that would allow large maps to be electronically transmitted between islands. The official
   also advised that the system would save travel and mailing costs but that it was not installed
   because they no longer have staff capable of assembling the system.




                                                 3
       Duplicate Costs - $35,840. The working papers questioned costs of $35,840 because
they were claimed twice. These costs represent expenses that were correctly claimed under grant
number F-14-R-22 and inadvertently also claimed on grant number F-14-R-23.

       In-Kind Contributions - $23,178. The work papers questioned costs of $23,178,
representing in-kind contributions on grant number W-22-G-5 for the following reasons:

           Amount                                Description
            $17,094 Costs of volunteer services that the Department included twice
                    in the project billings.

                 134 Costs of volunteer services that were applicable to grant
                     number W-23-NG-5.

               5,950 Costs of a Department-owned tractor that was used to perform
                     various grant-related tasks. As Department-owned equipment,
                     it should not have been claimed as an in-kind contribution. In
                     addition, these costs were improperly based on estimated hours
                     and standard industry use rates rather than on the actual costs
                     to the Department.

Recommendation

        We recommend that the FWS resolve the $420,910 of questioned costs representing out-
of-period costs ($296,934), items purchased but not used ($64,958), items claimed twice
($35,840), and incorrectly claimed or inadequately supported in-kind contributions ($23,178).

Department and U.S. Fish and Wildlife Responses

        In its September 4, 2002 letter to the U.S. Fish and Wildlife Service, the Department
stated it generally concurred with the report findings. The Department stated that its practice is
to report all allowable grant costs even though its matching requirement had been met and that
the overmatch on the grants will reduce the amount of funds required to be returned by $85,267.
The Department further stated that the finding on out-of-period costs involved the charging of
prior period contract invoices to the wrong grant segment. The Department stated that where
there are remaining Federal funds in those prior grants, they are requesting that the Department
be allowed to claim those charges on the correct segment, which will further reduce the amount
of funds required to be returned by $157,841.

       The FWS stated that it had reviewed the issue as well as the documentation submitted by
the Department and concurs with the proposed resolution, which leaves a total Federal share
balance of $54,083 in questioned costs.




                                                 4
Office of Inspector General Comments

        The FWS response indicated that the Department will need to address the Federal share
of $54,083 in outstanding questioned costs for grant numbers F-14-R-22 ($9,819 of questioned
out of period costs), F-14-R-23 ($26,880 of duplicate costs), and W-22-G-5 ($17,384 of in-kind
contribution claims).

B. Financial Management
       Improvements are needed in the areas of budget control, time distribution, asset
management, subgrantee monitoring, and non-Federal audits. Also, the Department needs to
ensure that the deficiencies identified by the Hawaii State Auditor are corrected.

        Budget Control. The Department accumulated and reported grant costs at the grant level
even though the grant proposals included multiple projects, each with its own budget. The Code
of Federal Regulations (43 CFR 12.60(b)(4)) states, “Actual expenditures or outlays must be
compared with budgeted amounts.” The Department’s grant proposals specified budgets for
individual projects. Consequently, project costs should be monitored and compared to project
budgets for better control of the Federal Aid grant funds. The Department does not have formal
written procedures to describe budget monitoring responsibilities or controls.

        Time Distribution. The Department did not have formal written procedures to
adequately control time charges for personnel services. The Code of Federal Regulations
(43 CFR 12.60(b)(5)) requires grantees to have accounting procedures sufficient to ensure
compliance with applicable Office of Management and Budget (OMB) cost principles. OMB
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment B,
Part 11, describes the standards for documenting employee time charges. To reduce the potential
for errors in accounting for time distribution, the Department should institute procedures to
address the following weaknesses noted during the review:

   •   Supervisors did not approve the timesheets.

   •   Outer island supervisors recorded time on the official timesheet for general worker
       employees who did not always sign the timesheets at the end of the month.

   •   Employees were not aware of the Federal regulations related to unallowable activities for
       Federal Aid grants and therefore were unable to determine whether the work completed
       should be charged to the activity codes listed on the timesheet.

   •   Timesheets were not supplied to employees until late in the month. Even though the
       majority of employees kept some type of daily log to document their work for transfer to
       the official timesheet, supplying and completing timesheets earlier should minimize the
       chance of errors.

   •   Employees completed timesheets in pencil.



                                               5
        Asset Management. The Code of Federal Regulations (43 CFR 12.60(b)(3)) states,
“Effective control and accountability must be maintained for all grant and subgrant …real and
personal property, and other assets. Grantees and subgrantees must adequately safeguard all
such property and must assure that it is used solely for authorized purposes.” The working
papers indicated that the Department could not readily provide a report to identify assets
purchased with Federal Aid and/or restricted funds, the level of Federal Aid participation in the
cost of the assets, or the location of assets. The Department was able to properly identify assets
purchased with Federal Aid funds for the Hunter Education Program because the Program is one
hundred percent funded by Federal Aid. The Department explained that the inventory system
was in the process of renovation.

        Subgrantee Monitoring. The Code of Federal Regulations (43 CFR 12.80), states that
“Grantees are responsible for managing the day-to-day operations of grant and subgrant
supported activities to assure compliance with applicable requirements and that performance
goals are being achieved.” However, the working papers indicate that the Department did not
have procedures for ensuring that the expenditures of subgrantees are necessary for the
achievement of grant objectives and charged to the proper grant segment. Two employees of the
Research Center of the University of Hawaii were responsible for reviewing the invoices
received from the University as well as other subgrantees. Subsequently, the Federal Aid
accountant recorded invoices in the grant cost ledgers without a further review of the invoices to
determine the propriety of the charges or the appropriate grant period.

        Non-Federal Audits. The Code of Federal Regulations (43 CFR 12.60(b)(3)) requires
grantees to implement internal controls for the effective control and accountability for all grant
and subgrant cash, real and personal property, and other assets. Audits of program activities are
an effective control mechanism. The working papers noted that two audit reports by the Hawaii
State Auditor had been completed of the Department’s Division of Boating and Ocean
Recreation that identified weaknesses in the Division’s fiscal accountability and cash
management. The first report (No. 00-11), issued in April 2000 states the Division (1) was
unable to prepare accounts receivable aging reports, (2) did not prepare Treasury deposit receipts
in a timely manner, (3) did not reconcile fund reports, (4) received payments for temporary
mooring permits after the effective dates of the permits, and (5) did not have procedures to
ensure that all amounts due from the issuance of temporary mooring permits were collected and
recorded. The second report (No. 01-009), dated April 2001, states that Hawaii’s boating
program has been mismanaged and neglected for years by both the Division and the Board of
Land and Natural Resources to the point where their use threatens public safety. The findings in
these reports could have an impact on the administration of Federal funds. Therefore, FWS
should monitor the corrective action taken to ensure that the problems are resolved.

Recommendations

       We recommend that FWS ensure that the Department:

       1. Develops and implements procedures that address all aspects of budget monitoring
including a provision that Federal Aid grant budgets be monitored on the project level.




                                                6
       2. Develops and implements procedures for the preparation of timesheets that include
requirements for the completion of timesheets in ink and for the signature of the timesheet by the
employee and supervisor.

        3. Develops and implements a property management system that addresses the noted
deficiencies.

       4. Develops and implements procedures for adequately monitoring costs claimed by
subgrantees.

       5. Corrects the deficiencies cited in the Hawaii State Auditors reports.

Department and U.S. Fish and Wildlife Service Responses

       The Department and the FWS did not provide a response to the five recommendations for
Finding B.

Office of Inspector General Comments

       The FWS needs to address the recommendations and provide an action plan on how the
finding will be resolved.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with
written comments by February 7, 2003, regarding the questioned costs and financial management
issues. Copies of documentation related to the final disposition of the questioned costs and other
issues should be provided with your response. If you have any questions regarding this report,
please contact Mr. Gary Dail, Federal Assistance Audit Coordinator, at (703) 487-8011.

        This advisory report is intended solely for the use of grant officials of the U.S. Fish and
Wildlife Service, and is not intended for, and should not be used by anyone who is not cognizant
of the procedures that were applied and who agreed to the sufficiency of those procedures.

cc:   Regional Director, Region 1
        U. S. Fish and Wildlife Service




                                                 7
                                                                                                   APPENDIX

          HAWAII DEPARTMENT OF LAND AND NATURAL RESOURCES
              FINANCIAL SUMMARY OF REVIEW COVERAGE
                   JULY 1, 1999, THROUGH JUNE 30, 2000

         Grant               Grant             Amount            Questioned                         Federal
        Number              Amount             Claimed             Costs              Balance        Share
    F-11-D-22                $660,000            $731,364               $0             $731,364     $495,000
    F-11-D-23                 510,000             526,763                0               526,763     382,500
    F-11-D-24                 510,000             253,077                0               253,077     189,808
    F-12-D-23                 765,000           1,196,670                0             1,196,670     573,750
    F-12-D-24               1,065,000           1,326,726            6,825             1,319,901      798,750∗
    F-13-C-23                  30,000              22,201                0                22,201       16,651
    F-13-C-24                  30,000              38,980                0                38,980       22,500
    F-14-R-22                 643,000             465,074           52,994               412,080      291,029
    F-14-R-23                 638,888             573,072          137,150               435,922      326,942
    F-14-R-24                 638,000             565,743           69,243               496,500      372,375
    F-15-T-23                  36,000              13,803                0                13,803       10,352
    F-15-T-24                  36,000              13,297                0                13,297        9,973
    F-16-T-23                  80,000              62,557                0                62,557       46,918
    F-16-T-24                  80,000              70,767                0                70,767       53,075
    F-17-R-22               1,286,000           1,353,460           24,042             1,329,418      737,250*
    F-17-R-23               1,286,000           1,357,847           40,854             1,316,993      737,250*
    F-17-R-24               1,286,000           1,418,789           66,624             1,352,165      737,250*
    F-18-AE-11                359,000             308,533                0               308,533      231,400
    F-18-AE-12                359,000             360,945                0               360,945      269,250
    F-18-AE-13                359,000             387,068                0               387,068      269,250
    F-19-B-15                 400,000             388,281                0               388,281      291,616
    F-19-B-16                  60,000              61,593                0                61,593       45,000
    F-19-B-18                  50,000              45,359                0                45,359       34,019
    F-19-B-19                 140,000             174,240                0               174,420      105,000
    F-19-B-20                 200,000             260,280                0               260,280      150,000
    F-19-B-21                  70,000             132,549                0               132,549       52,500
    F-19-B-22                  50,000              55,247                0                55,247       37,500
    F-21-R-5                   20,000              20,000                0                20,000       15,000
    F-21-R-6                   20,000              20,000                0                20,000       15,000
    F-23-D-1                   91,000              91,000                0                91,000       68,250
    W-21-HS-22                485,000             506,952                0               506,952      325,734
    W-21-HS-23                434,000             472,586                0               472,586      300,000
    W-21-HS-24                434,000             451,587                0               451,587      300,000
    W-22-G-4                  737,500             743,435                0               743,435      553,125
    W-22-G-5                  872,700             862,835           23,178               839,657      629,743
    W-23-NG-4                 265,250             335,936                0               335,936      198,937
    W-23-NG-5                 273,700             396,517                0               396,517      205,275
      Total               $15,260,038         $16,065,133         $420,910           $15,644,223   $9,897,972


∗
    Sufficient excess costs were claimed to offset the amount of questioned costs.
                                                            8
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
